                                                                                                            I

                                                   OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM
                                                                                                            i


                                                                                                            II
                                                                                                            I
                                                                                                            I
         OIG opened this investigation based on a proactive review of grants awarded under the "U.S.-
         Egypt Joint Fund Program" involving substantial foreign travel or participant support costs. The
         purpose of the review was to ensure compliance with the applicable laws, regulations, and award


         The grantee' was selected and asked to provide financial information and supporting
         documentation related to an NSF award.2 The grantee submitted records, documentation, and
         explanations for all questioned costs as requested. A review noted the majority of expenses
         charged to the grant had supporting documentation and in cases where documentation was not
         available, the grantee provided a valid explanation for the missing documentation3.

         The grantee has properly accounted for all grant expenditures and has complied with the award


         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)

                                    -
